No. 19A-------------------In The
Supreme Court of the United States
-------------------K.G.S., Individually and as Guardian and Next Friend of Baby Doe,
Applicant,
v.
Facebook, Inc.
-------------------APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
-------------------To the Honorable Clarence Thomas, as Circuit Justice for the United States
Court of Appeals for the Fifth Circuit:
Pursuant to Court Rule 13.5, K.G.S., Individually and as Guardian and Next
Friend of Baby Doe, respectfully requests a 57-day extension of time, to and including
January 17, 2020, within which to file a petition for a writ of certiorari in this case.
The Supreme Court of Alabama issued its opinion on June 28, 2019. See App. A.
Rehearing was denied on August 23, 2019, without opinion. See App. B. Absent an
extension of time, a petition for a writ of certiorari would be due November 21, 2019.
Facebook consents to this request.
1

This case presents a substantial and important question of federal law:
Whether the Due Process Clause of the Fourteenth Amendment to the United States
Constitution prohibits virtual contacts from establishing specific personal
jurisdiction over a nonresident defendant where the plaintiff has suffered
reputational and emotional harm under the effects-based test of Calder v. Jones, 465
U.S. 783, 788-789 (1984), a question left open by this Court’s decision in Walden v.
Fiore, 571 U.S. 277, 290, n.9 (2014).

This open question has produced ongoing

confusion and conflicting rulings in the lower courts.
Below, the Supreme Court of Alabama held that the Due Process Clause, which
is incorporated in the Alabama long-arm statute, App. A17-18, bars specific
jurisdiction over a suit based on defendant Facebook’s negligent and wanton
publication of an Internet article about an Alabama adoption that intentionally
inflicted emotional distress, where—among other factors—the article was widely
disseminated within Alabama, the “brunt” of the injury was suffered by an Alabama
plaintiff (accord Calder, 465 U.S. at 788-789), and Facebook was aware that the
injury was suffered in Alabama, App. A 24-41.
A 57-day extension of time is needed to prepare and file a petition for a writ of
certiorari.

Counsel of record in this Court was retained by the Applicant only

recently, on October 29, 2019. Counsel currently faces the press of other matters
before this and other courts, including but not limited to the filing of an amicus curiae
brief in Espinoza v. Montana Department of Revenue, No. 18-1195 (U.S.), due

2

November 15, 2019; the filing of a reply brief in Thunder Studios, Inc. v. Kazal, No.
19-55413 (9th Cir.), due November 25, 2019; and the December 2019 filing of a
response to an anticipated dispositive motion in ETC v. EPA, No. 19-1215 (D.C. Cir.).
In addition, counsel will be out of the country from December 23, 2019 to January 7,
2020 on a long-planned family trip to China and Japan.
* * * * *
For the foregoing reasons, K.G.S. respectfully requests that the time within
which to file a petition for a writ of certiorari be extended by 57 days, to and including
January 17, 2020.
Respectfully submitted,

________________________
Ruthanne M. Deutsch
Counsel of Record
DEUTSCH HUNT PLLC
300 New Jersey Ave., NW
Suite 900
Washington, DC 20001
202-868-6915
rdeutsch@deutschhunt.com
October 31, 2019

3

CERTIFICATE OF SERVICE
Pursuant to Rules 29.3 and 29.5 of the Rules of this Court, I certify that all
parties required to be served have been served. On October 31, 2019, I caused a copy
of the foregoing Application for Extension of Time Within Which to File a Petition for
a Writ of Certiorari to be served by United States Postal Service, priority mail postage
prepaid, on the below-named counsel for Facebook, Inc.:
Paven Malhotra
KEKER, VAN NEST, & PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400

________________________
Ruthanne M. Deutsch
Counsel of Record

October 31, 2019

4

APPENDIX A
Facebook, Inc. v. K.G.S., individually and as a guardian and next friend
of Baby Doe, a minor child
No. 1170244 (Supreme Court of Alabama, June 28, 2019)

Rel: June 28, 2019

Notice: This opinion is subject to formal revision before publication in the advance
sheets of Southern Reporter. Readers are requested to notify the Reporter of Decisions,
Alabama Appellate Courts, 300 Dexter Avenue, Montgomery, Alabama 36104-3741 ((334) 2290649), of any typographical or other errors, in order that corrections may be made before
the opinion is printed in Southern Reporter.

SUPREME COURT OF ALABAMA
OCTOBER TERM, 2018-2019
____________________
1170244
____________________
Facebook, Inc.
v.
K.G.S., individually, and as guardian and next friend of
Baby Doe, a minor child
____________________
1170294
____________________
Renee L. Gelin
v.
K.G.S., individually, and as guardian and next friend of
Baby Doe, a minor child

____________________
1170336
____________________
Kim McLeod
v.
K.G.S., individually, and as guardian and next friend of
Baby Doe, a minor child
Appeals from Jefferson Circuit Court
(CV-17-255)

BRYAN, Justice.1
This case stems from the adoption of "Baby Doe" by his
adoptive mother, K.G.S., which was contested by Baby Doe's
birth mother, K.R. ("the birth mother"). Details of that
contested adoption were reported by the Huffington Post, a
Web-based media outlet, and were also disseminated through a
Facebook social-media page devoted to having Baby Doe returned
to the birth mother.

K.G.S. filed an action in the Jefferson

Circuit Court ("the trial court") seeking, among other things,
an injunction against Facebook, Inc., and certain individuals
to

prohibit

the

dissemination

1

of

information

about

the

These appeals were assigned to Justice Bryan on February
15, 2019.
2

1170244, 1170294, 1170336
contested adoption of Baby Doe. These appeals follow from the
entry of a preliminary injunction granting K.G.S. the relief
she seeks.
I. Preliminary Matters
The preliminary injunction that is the basis of these
appeals was entered on December 19, 2017.

The appeals taken

from that order were timely filed within 14 days of the entry
of that order, see Rule 4(a)(1)(A), Ala. R. App. P., and on
February 9, 2018, this Court received notice from the trialcourt clerk certifying the record on appeal as complete on
February 6, 2018.

Since that time, K.G.S. has engaged in

repeated efforts to have the record on appeal supplemented
with matters that were not before the trial court at the time
it

entered

the

injunction

at

issue

in

these

appeals,

purportedly pursuant to Rule 10(f), Ala. R. App. P.

The

trial court has facilitated K.G.S.'s efforts by granting her
motions to supplement the record to include matters that were
not

before

the

trial

court

at

the

time

it

entered

the

preliminary injunction, such as a second amended complaint
filed by K.G.S. on March 12, 2018, transcripts of depositions
taken long after the entry of the preliminary injunction at

3

1170244, 1170294, 1170336
issue on appeal and after the record was certified as complete
on February 6, 2018,2 and e-mails and letters from 2015 that,
K.G.S. says, support the preliminary injunction.
It is well settled that Rule 10(f) cannot be used to
supplement the record on appeal to include matters that were
not before the trial court at the time the order being
appealed was entered. See Cowen v. M.S. Enters., Inc., 642 So.
2d 453, 455 (Ala. 1994) (holding that Rule 10(f) "was not
intended to allow the inclusion of material in the record on
appeal

that

concluding

had

that

not
the

been

before

the

trial

court"

and

trial

court

erred

in

granting

the

appellant's Rule 10(f) motion to supplement the record with
evidence that was not provided to the trial court before it
entered the judgment supporting the appeal); and Houston Cty.
Health Care Auth. v. Williams, 961 So. 2d 795, 810 n.8 (Ala.
2006) ("Rule 10(f) does not allow ... for the addition to the
record on appeal of matters not before the trial court when it
entered its decision ....").
the

trial

court

erred

by

Accordingly, we conclude that
granting

2

K.G.S.'s

motions

to

One such deposition was taken on March 1, 2019,
approximately 15 months after the entry of the preliminary
injunction.
4

1170244, 1170294, 1170336
supplement the record on appeal to include matters that were
not

before

preliminary

the

trial

injunction

court
at

at

issue

the

time

in

these

it

entered

appeals.

the
For

purposes of deciding the merits of these appeals, we have
considered only the evidence and arguments that were presented
to the trial court at the time the preliminary injunction was
entered.
Additionally, K.G.S. filed a motion in this Court seeking
leave to file a "sur-reply brief," purportedly for the purpose
of "further assist[ing] the [Court] in its determination" of
the issues presented by these appeals.

After reviewing the

briefs and arguments filed by the parties pursuant to Rule 28,
Ala. R. App. P., and the proposed "sur-reply brief" from
K.G.S., we deny K.G.S.'s request for leave to file a "surreply brief." See note 15, infra.
II. Background Facts 3 and Procedural History
In June 2015, K.G.S. filed a petition in the Mobile
Probate Court to adopt Baby Doe, and, shortly thereafter, the
birth

mother

filed

a

contest

3

to

K.G.S.'s

petition

for

The background facts are taken from allegations in
K.G.S.'s first amended complaint, which was the controlling
complaint at the time the preliminary injunction was entered.
5

1170244, 1170294, 1170336
adoption.4 The birth mother subsequently came in contact with
Mirah Riben, "a well-known critic of the United States'
adoption system" and a contributor to the Huffington Post.
The birth mother shared with Riben her version of the events
that led her to contest K.G.S.'s petition to adopt Baby Doe.
On July 7, 2015, the Huffington Post, which K.G.S. describes
as "a prominent media outlet," published two online articles
about Baby Doe's adoption that included the full name of the
birth mother; identified K.G.S. by her full name as the
prospective adoptive mother of Baby Doe; identified Baby Doe
by the name the birth mother had given Baby Doe; and included
photographs of Baby Doe.

The articles detailed how, after

signing a pre-birth consent to allow K.G.S. to adopt Baby Doe,
the birth mother notified K.G.S. and K.G.S.'s attorney, before
Baby Doe was born, that she had changed her mind about
4

The details of the adoption contest were set forth by the
Court of Civil Appeals in a decision affirming a summary
judgment in favor of K.G.S. on the birth mother's adoption
contest. See K.L.R. v. K.G.S., 264 So. 3d 65 (Ala. Civ. App.
2018) (opinion on application for rehearing) (cert. denied,
May 11, 2018). That decision states that physical custody of
Baby Doe was removed from the birth mother and transferred to
K.G.S. on June 17, 2015, and that the Mobile Probate Court
entered a final decree of adoption in favor of K.G.S. on
August 24, 2016. Thus, the adoption contest was no longer
pending in the Mobile Probate Court when this action was filed
in July 2017.
6

1170244, 1170294, 1170336
allowing Baby Doe to be adopted; the birth mother, however,
never legally withdrew the pre-birth consent to adoption, and
K.G.S. obtained custody of and filed a petition to adopt Baby
Doe approximately three weeks after Baby Doe was born.
The

day

after

the

articles

were

published,

Claudia

D'Arcy, a resident of New York state, created a page on
Facebook's social-media Web site dedicated to reuniting the
birth

mother

and

Baby

Doe

("the

Facebook

page"),

which

"attached" the articles published by the Huffington Post. The
Facebook page also included K.G.S.'s full name and a "number"
of photographs of Baby Doe, who was then in the custody of
K.G.S. See note 4, supra. After the creation of the Facebook
page, K.G.S. was "inundated with appallingly malicious and
persistent cyber-bullying." In a letter dated July 28, 2015,
K.G.S.'s attorney notified Facebook that the Facebook page
needed to be removed because it was in violation of the
Alabama Adoption Code, § 26-10A-1 et seq., Ala. Code 1975
("the Adoption Code"), which, the attorney said, prohibits the
disclosure of "any matters concerning an adoption, including
parties' actual names."

Facebook removed the "cover photo,

7

1170244, 1170294, 1170336
but refused to delete the [Facebook] page or otherwise prevent
it from disseminating its harmful and false message."
On

July

Huffington
adoption

7,

Post

and

2017,

approximately

published

D'Arcy

the

created

two

articles
the

years
about

Facebook

after
Baby

page,

the

Doe's

K.G.S.,

individually and as the guardian and next friend of Baby Doe,
filed an action in the trial court naming Facebook, D'Arcy,
Kim McLeod, and Renee Gelin as defendants.5

K.G.S. filed her

first amended complaint on October 20, 2017, adding Jennifer
L. Wachowski as a defendant.
alleged

that,

after

K.G.S.

The first amended complaint
filed

her

adoption

petition,

D'Arcy, McLeod, Gelin, and Wachowski (hereinafter referred to
collectively as "the individual defendants") realized the
birth mother was unlikely to succeed in her adoption contest
based on Alabama law; that the individual defendants then
"conspired

to

scandal-driven

create
trial

a
in

sensationalized,
the

court

of

salacious,

public

opinion

and
to

pressure K.G.S. into relinquishing her custody of Baby Doe";
and that Riben "quickly ran with [the birth mother]'s tale of

5

The trial court initially granted K.G.S.'s motion to seal
the proceedings below; however, the trial court later unsealed
the case but marked the case "confidential."
8

1170244, 1170294, 1170336
events that combined [Riben]'s biased agenda ... [with the]
nefarious

publicity-stunt

strategy"

of

the

individual

defendants. K.G.S. alleged that McLeod, Gelin, and Wachowski
were instrumental in "publicizing" the Facebook page created
by

D'Arcy

and

that

Gelin

and

Wachowski,

"through

their

respective blogs ..., various Facebook posts, and ... YouTube
videos, further publicized the private, confidential adoption
of Baby Doe." K.G.S. further alleged that the Facebook page is
"persistently updated with various posts, news articles, and
YouTube videos at K.G.S.'s expense" and that several videos
streamed online by YouTube and posted on the Facebook page
include Gelin, McLeod, and Wachowski, "all of whom attended
and/or participated in filming that took place in Jefferson
County."

K.G.S.

further

claimed

that

the

individual

defendants, through the Facebook page, have made her "the
poster-child for 'predatory' adoptions in the United States."
K.G.S. brought claims alleging negligence per se based on
each

defendants'

Adoption

Code

prohibit

the

adoptions";

violation

that,

she

public
two

of

said,

certain

"explicitly

disclosure

counts

of
9

provisions

of

or

matters

invasion

of

of

the

implicitly
concerning
privacy

1170244, 1170294, 1170336
(misappropriation and false light) against the individual
defendants only; the tort of outrage/intentional infliction of
emotional distress; conspiracy; negligence; and wantonness.
The complaint further alleged that Facebook is incorporated in
Delaware with its principal place of business in Menlo Park,
California; that Gelin is a resident of Pasco County, Florida;
that McLeod is a resident of Mobile County; and that Wachowski
is a resident of Waupaca County, Wisconsin.
McLeod and Gelin filed separate motions to dismiss the
complaint pursuant to Rule 12(b)(6), Ala. R. Civ. P., arguing
that K.G.S.'s complaint failed to state a claim against them.
Facebook filed a motion to dismiss pursuant to Rule 12(b)(2),
(3), and (6), Ala. R. Civ. P., arguing that the trial court
lacked personal jurisdiction over Facebook; that Facebook had
immunity as to each of the claims asserted by K.G.S. pursuant
to the Communications Decency Act of 1996, 47 U.S.C. § 230;
that K.G.S.'s claims are barred under the First Amendment to
the United States Constitution; and that venue was improper in
Jefferson County, Alabama. Facebook's motion to dismiss was
supported by an affidavit from Michael Duffey, a Facebook
employee.

He

testified

that
10

Facebook

is

a

Delaware

1170244, 1170294, 1170336
corporation with its principal place of business in Menlo
Park, California; that the Facebook Web site and mobile
application are available for users to access anywhere in the
country (or the world) where there is an Internet connection;
that individuals in all 50 states have accounts with Facebook;
that Facebook is qualified to do business in all 50 states;
and that Facebook has no offices, property, or employees
located in Alabama.
On September 20, 2017, before K.G.S. amended her original
complaint, Gelin filed an "amended" motion to dismiss K.G.S.'s
complaint. In addition to reasserting that the claims against
her were due to be dismissed pursuant to Rule 12(b)(6), Gelin
also asserted for the first time that the claims were due to
be

dismissed

because

the

trial

court

lacked

personal

jurisdiction over her. See Rule 12(b)(2). Gelin did not attach
an affidavit or any other evidence to support her lack-ofpersonal-jurisdiction defense at that time.
On October 12, 2017, K.G.S., individually and in her
capacity as guardian and next friend of Baby Doe, filed a
motion for a preliminary injunction pursuant to Rule 65, Ala.
R. Civ. P.

K.G.S. sought an order requiring Facebook and
11

1170244, 1170294, 1170336
D'Arcy to deactivate the Facebook page and an order enjoining
D'Arcy and McLeod "from discussing matters surrounding ...
this lawsuit until the instant proceeding is fully litigated
and resolved." K.G.S. alleged that the invasion of her and
Baby Doe's privacy was an irreparable injury, that she had a
reasonable chance of success on the merits of her invasion-ofprivacy claim, and that the benefit to her and Baby Doe of
removing the source of the principal disseminator of "illegal
information" –- the Facebook page –- far exceeded any burden
imposed on the defendants.

The motion for a preliminary

injunction did not mention Gelin or Wachowski.
After K.G.S. filed her first amended complaint on October
20, 2017, discussed supra, Facebook filed a motion to dismiss
the amended complaint and a motion opposing the preliminary
injunction. Gelin also filed a motion to dismiss the first
amended complaint, reasserting Rule 12(b)(2) and (6) as the
grounds for dismissal. Gelin attached an affidavit to support
her

contention

that

the

trial

court

lacked

personal

jurisdiction over her. 6

6

The affidavit stated that Gelin is a resident of Florida
and has never lived in Alabama; that she has never done
business in Alabama; that she has never traveled to or through
12

1170244, 1170294, 1170336
On November 29, 2017, K.G.S. filed a motion opposing the
motions to dismiss filed by Facebook, Gelin, and McLeod.
K.G.S. argued that Gelin's motion to dismiss for lack of
personal jurisdiction was due to be denied because (1) she
waived any defect in personal jurisdiction because she failed
to raise that defense in her first Rule 12(b) motion to
dismiss and (2) even if the defense was not waived, Gelin was
subject to personal jurisdiction in Alabama based on the
effects in Alabama of her conduct.

Gelin filed a response

addressing both arguments asserted by K.G.S. and filed a
second affidavit to support her argument that she did not have
minimum

contacts

with

Alabama

to

support

personal

jurisdiction.
In support of her contention that the trial court had
personal jurisdiction over Facebook, K.G.S. attached evidence
indicating that Facebook was notified –- via two letters from
K.G.S.'s attorney and a separately filed report of harassment
to Facebook filed by K.G.S. -- of the existence of the
Facebook page, its harmful effects, and its alleged violation

Alabama, including to film a YouTube video; and that she does
not author a "blog," a Web site, or any other publication
directed to residents of Alabama.
13

1170244, 1170294, 1170336
of Alabama law; that Facebook responded to K.G.S.'s attorney
stating that it would review K.G.S.'s complaints but never
"followed up" with K.G.S.'s attorney; and that, in response to
K.G.S.'s report of harassment to Facebook, Facebook initially
notified K.G.S. that it had removed a photograph of Baby Doe
from

the

Facebook

Facebook's
reversed

"community

course

photograph

page

of

and
Baby

because

standards"

the
but

notified

K.G.S.

Doe

not

did

photograph
almost
by

immediately

e-mail

violate

its

violated

that

the

community

standards. In a letter dated July 28, 2015, K.G.S.'s attorney
specifically notified Facebook that its "actions have had an
adverse affect on the health and well-being" of K.G.S. K.G.S.
argued that "the exercise of jurisdiction over Facebook is
proper based on the 'effects' of its conscious, out-of-state
conduct in Alabama."
The record indicates that the trial court conducted a
hearing on the pending motions to dismiss on November 30,
2017.

During that hearing, K.G.S. provided the trial court

with an affidavit to support her request for a preliminary
injunction, which verified some of her pleadings and set forth
the harm K.G.S. and Baby Doe allegedly had suffered because of
14

1170244, 1170294, 1170336
the information posted on the Facebook page.

A transcript of

that hearing is not included in the record on appeal.
On December 18, 2017, the trial court entered separate
orders denying the motions to dismiss filed by Facebook,
Gelin, and McLeod. The following day, the trial court entered
a preliminary injunction ordering Facebook and D'Arcy to
deactivate the Facebook page and enjoining D'Arcy, Gelin, and
McLeod "from publicly discussing, in any way whatsoever,
matters surrounding the adoption of Baby Doe and this lawsuit
in any public forum." Pursuant to Rule 4(a)(1)(A), which
allows

an

Facebook,

appeal

from

Gelin,

and

an

order

McLeod

granting

separately

an

injunction,

appealed.7

We

consolidated the appeals for the purpose of issuing one
opinion.
III. Analysis
A. Appeal No. 1170244 - Facebook
Facebook raises multiple challenges to the propriety of
the preliminary injunction.

First, Facebook argues that the

trial court had no authority to enter an injunction requiring

7

D'Arcy did not appeal the trial court's
requiring her to deactivate the Facebook page.
15

injunction

1170244, 1170294, 1170336
it to deactivate the Facebook page because, Facebook argues,
the trial court lacks personal jurisdiction over it. Although
our review of the trial court's determination that it had
personal jurisdiction is before us on appeal from the entry of
a preliminary injunction, we will apply the same standard of
review that we use when reviewing the denial of a motion to
dismiss for lack of personal jurisdiction.
"'"'An appellate court considers de novo a
trial court's judgment on a party's motion
to
dismiss
for
lack
of
personal
jurisdiction.'" Ex parte Lagrone, 839 So.
2d 620, 623 (Ala. 2002) (quoting Elliott v.
Van Kleef, 830 So. 2d 726, 729 (Ala.
2002)). Moreover, "[t]he plaintiff bears
the burden of proving the court's personal
jurisdiction over the defendant." Daynard
v. Ness, Motley, Loadholt, Richardson &
Poole, P.A., 290 F.3d 42, 50 (1st Cir.
2002).'
"Ex parte Dill, Dill, Carr, Stonbraker & Hutchings,
P.C., 866 So. 2d 519, 525 (Ala. 2003).
"'"In considering a Rule 12(b)(2),
Ala. R. Civ. P., motion to dismiss for want
of personal jurisdiction, a court must
consider as true the allegations of the
plaintiff's complaint not controverted by
the defendant's affidavits, Robinson v.
Giarmarco & Bill, P.C., 74 F.3d 253 (11th
Cir. 1996), and Cable/Home Communication
Corp. v. Network Productions, Inc., 902
F.2d 829 (11th Cir. 1990), and 'where the
plaintiff's complaint and the defendant's
affidavits conflict, the ... court must
16

1170244, 1170294, 1170336
construe all reasonable inferences in favor
of the plaintiff.' Robinson, 74 F.3d at 255
(quoting Madara v. Hall, 916 F.2d 1510,
1514 (11th Cir. 1990))."'
"Wenger Tree Serv. v. Royal Truck & Equip., Inc.,
853 So. 2d 888, 894 (Ala. 2002) (quoting Ex parte
McInnis, 820 So. 2d 795, 798 (Ala. 2001)). However,
if the defendant makes a prima facie evidentiary
showing that the Court has no personal jurisdiction,
'the plaintiff is then required to substantiate the
jurisdictional allegations in the complaint by
affidavits or other competent proof, and he may not
merely reiterate the factual allegations in the
complaint.' Mercantile Capital, LP v. Federal
Transtel, Inc., 193 F. Supp. 2d 1243, 1247 (N.D.
Ala. 2002)(citing Future Tech. Today, Inc. v. OSF
Healthcare Sys., 218 F.3d 1247, 1249 (11th Cir.
2000)). See also Hansen v. Neumueller GmbH, 163
F.R.D. 471, 474–75 (D. Del. 1995)('When a defendant
files a motion to dismiss pursuant to Fed. R. Civ.
P. 12(b)(2), and supports that motion with
affidavits, plaintiff is required to controvert
those affidavits with his own affidavits or other
competent evidence in order to survive the motion.')
(citing Time Share Vacation Club v. Atlantic
Resorts, Ltd., 735 F.2d 61, 63 (3d Cir. 1984))."
Ex parte Covington Pike Dodge, Inc., 904 So. 2d 226, 229–30
(Ala. 2004).
It is well settled that Alabama's long-arm rule, Rule
4.2, Ala. R. Civ. P., "extends the personal jurisdiction of
Alabama courts to the limit of due process under the United
States and Alabama Constitutions," Hiller Invs., Inc. v.
Insultech Grp., Inc., 957 So. 2d 1111, 1115 (Ala. 2006), and
17

1170244, 1170294, 1170336
that the due process guaranteed under the Alabama Constitution
is coextensive with the due process guaranteed by the United
States Constitution. "It has long been established that the
Fourteenth

Amendment

[to

the

United

States

Constitution]

limits the personal jurisdiction of state courts." BristolMyers Squibb Co. v. Superior Court of California, 582 U.S.
___, ___, 137 S.Ct. 1773, 1779 (2017). Thus, we must determine
if the trial court's assertion of personal jurisdiction over
Facebook comports with due process of law as guaranteed by the
Fourteenth Amendment to the United States Constitution. See
generally Ex parte International Creative Mgmt. Partners, LLC,
258 So. 3d 1111, 1114-15 (Ala. 2018).
"The Due Process Clause of the Fourteenth
Amendment permits a forum state to subject a
nonresident defendant to its courts only when that
defendant has sufficient 'minimum contacts' with the
forum state. International Shoe Co. v. Washington,
326 U.S. 310, 316, 66 S.Ct. 154, 90 L.Ed. 95 (1945).
The critical question with regard to the nonresident
defendant's contacts is whether the contacts are
such that the nonresident defendant '"should
reasonably anticipate being haled into court"' in
the forum state. Burger King Corp. v. Rudzewicz, 471
U.S. 462, 473, 105 S.Ct. 2174, 85 L.Ed. 2d 528
(1985), quoting World–Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 295, 100 S.Ct. 559, 62 L.Ed.
2d 490 (1980)."
Elliott v. Van Kleef, 830 So. 2d 726, 730 (Ala. 2002).
18

1170244, 1170294, 1170336
Since the United States Supreme Court's decision in
International Shoe

Co. v. Washington, 326 U.S. 310 (1945),

two types of personal jurisdiction have been recognized:
"'general' (sometimes called 'all-purpose') jurisdiction and
'specific' (sometimes called 'case-linked') jurisdiction."
Bristol-Myers Squibb, 582 U.S. at ___, 137 S.Ct. at 1780.
"In the case of either general in personam
jurisdiction or specific in personam jurisdiction,
'[t]he
"substantial
connection"
between
the
defendant and the forum state necessary for a
finding of minimum contacts must come about by an
action of the defendant purposefully directed toward
the forum State.' Asahi Metal Indus. Co. v. Superior
Court of California, 480 U.S. 102, 112, 107 S.Ct.
1026,
94
L.Ed.
2d
92
(1987).
This
purposeful-availment requirement assures that a
defendant will not be haled into a jurisdiction as
a result of '"the unilateral activity of another
person or a third person."' Burger King [Corp. v.
Rudzewicz], 471 U.S. [462,] 475, 105 S.Ct. 2174
[(1985)],
quoting
Helicopteros
Nacionales
de
Colombia, S.A. v. Hall, 466 U.S. 408, 417, 104 S.Ct.
1868, 80 L.Ed. 2d 404 (1984)."
Elliott, 830 So. 2d at 731.
K.G.S. argued below that the trial court had both general
and specific jurisdiction over Facebook, and the trial court
did not indicate whether the jurisdiction it was exercising
over Facebook was general or specific. Facebook argues that
the trial court had neither general nor specific jurisdiction.
19

1170244, 1170294, 1170336
We will address each basis for the trial court's potential
exercise of personal jurisdiction over Facebook.
1. General Jurisdiction
In BNSF Railway Co. v. Tyrell, 581 U.S. ___, 137 S.Ct.
1549 (2017), the United States Supreme Court summarized the
minimum requirements of due process as it relates to a state
court's

exercise

of

general

jurisdiction

over

a

foreign

corporation:
"Goodyear [Dunlop Tires Operations, S.A. v.
Brown, 564 U.S. 915 (2011),] and Daimler [AG v.
Bauman, 571 U.S. 117 (2014),] clarified that '[a]
court may assert general jurisdiction over foreign
(sister-state or foreign-country) corporations to
hear any and all claims against them when their
affiliations with the State are so "continuous and
systematic" as to render them essentially at home in
the forum State.' Daimler, 571 U.S., at 127 (quoting
Goodyear, 564 U.S., at 919). The 'paradigm' forums
in which a corporate defendant is 'at home,' we
explained,
are
the
corporation's
place
of
incorporation and its principal place of business.
Daimler, 571 U.S., at 137; Goodyear, 564 U.S., at
924. The exercise of general jurisdiction is not
limited to these forums; in an 'exceptional case,'
a corporate defendant's operations in another forum
'may be so substantial and of such a nature as to
render the corporation at home in that State.'
Daimler, 571 U.S., at 138, n. 19. We suggested that
Perkins v. Benguet Consol. Mining Co., 342 U.S. 437
(1952), exemplified such a case. Daimler, 571 U.S.,
at 138, n. 19. In Perkins, war had forced the
defendant
corporation's
owner
to
temporarily
relocate the enterprise from the Philippines to
Ohio. 342 U.S., at 447–448. Because Ohio then became
20

1170244, 1170294, 1170336
'the
center
of
the
corporation's
wartime
activities,' Daimler, 571 U.S., at 130, n. 8, suit
was proper there, Perkins, 342 U.S., at 448."
581 U.S. at ___, 137 S.Ct. at 1558.
In the present case, there are no factual allegations in
the amended complaint to support the trial court's exercise of
general jurisdiction over Facebook.

Nevertheless, Facebook

submitted undisputed evidence that it is not incorporated in
Alabama and does not maintain its principal place of business
in Alabama.

Facebook also presented undisputed evidence that

it had no offices, property, or employees located in Alabama,
and, thus, it presented prima facie evidence that this was not
an "exceptional case" where its operations in Alabama were
"'so substantial and of such a nature as to render [Facebook]
at home in [Alabama].'" Id. (quoting Daimler AG v. Bauman, 571
U.S. 117, 138 n. 19 (2014)).
Although K.G.S. did not provide any evidence to rebut
Facebook's evidence in this regard, she cites two federal
district court decisions8 that predate the Supreme Court's

8

See Haney v. Floyd Healthcare Mgmt., Inc., No. 4:08-CV2393-VEH (N.D. Ala. April 16, 2009) (not selected for
publication in F. Supp.) (finding the existence of general
personal jurisdiction in Alabama over an nonresident
corporation that was registered to do business in Alabama and
21

1170244, 1170294, 1170336
decisions in Daimler, Goodyear Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915 (2011), and BNSF, and she argues that
Facebook is subject to general jurisdiction in Alabama because
it is registered to do business in Alabama.

However, in both

Daimler and BNSF, the Supreme Court made it abundantly clear
that any precedent that supported the notion that the exercise
of general jurisdiction could be based on a simple assertion
that an out-of-state corporation does business in the forum
state has become obsolete.

In BNSF, the Court held that the

nonresident defendant corporation was not "at home" in the
forum

state,

and

thus

not

subject

to

general

personal

jurisdiction there, despite the fact that the defendant was
"doing business" in the forum state, because the defendant was
not incorporated in the forum state and it did not maintain
its principal place of business in the forum state. The Court

had five employees working at a primary-care facility in
Alabama that was operated by the foreign corporation); and
Johnston v. Foster-Wheeler Constructors, Inc., 158 F.R.D. 496,
503 (M.D. Ala. 1994) (holding that a nonresident defendant had
continuous and systematic contacts with the State of Alabama
and that the defendant "could reasonably have foreseen being
haled into court because it qualified to do business and
performed construction work in Alabama and hired the
Plaintiff, an Alabama resident, to work on the Florida
construction site").
22

1170244, 1170294, 1170336
also held that the defendant was not "so heavily engaged in
activity in [the forum state] 'as to render [it] essentially
at home' in that State," despite the fact that the defendant
had over 2,000 miles of railroad track and more than 2,000
employees working in the forum state. BNSF, 581 U.S. at ___,
137 S.Ct. at 1559.

In making that determination, the Court

looked to the entirety of the defendant's activities and
concluded that "'[a] corporation that operates in many places
can scarcely be deemed at home in all of them.'" Id. (quoting
Daimler, 571 U.S. at 139 n. 20).9 See also Daimler, 571 U.S.
at 130 n. 8 (noting that the Court's recognition of general
jurisdiction in Perkins "'should be regarded as a decision on
its exceptional facts, not as a significant reaffirmation of
obsolescing notions of general jurisdiction' based on nothing
more

than

a

corporation's

'doing

9

business'

in

a

forum"

Facebook also presented undisputed evidence that it was
qualified to do business in every state. As noted above, in
Daimler the Supreme Court noted that "[a] corporation that
operates in many places can scarcely be deemed 'at home' in
all of them. Otherwise, 'at home' would be synonymous with
'doing business' tests framed before specific jurisdiction
evolved in the United States." 571 U.S. at 139 n. 20 (citing
Arthur T. von Mehren & Donald T. Trautman, Jurisdiction to
Adjudicate: A Suggested Analysis, 79 Harv. L. Rev. 1121, 114244 (1966)).
23

1170244, 1170294, 1170336
(quoting

Arthur

T.

von

Mehren

&

Donald

T.

Trautman,

Jurisdiction to Adjudicate: A Suggested Analysis, 79 Harv. L.
Rev. 1121, 1144 (1966))).
Thus, we conclude that the Supreme Court has firmly
rejected any notion that a nonresident defendant's "doing
business" in a forum state is sufficient, in and of itself, to
subject the out-of-state defendant to the general personal
jurisdiction of the forum state.

Accordingly, because K.G.S.

pleaded no facts in support of general jurisdiction and
Facebook

presented

undisputed

evidence

that

it

was

not

incorporated in Alabama, that its principal place of business
was not in Alabama, and that its operations in Alabama are not
so substantial or of such a nature as to render it "at home"
in Alabama, we conclude that the Fourteenth Amendment does not
allow for the trial court's exercise of general jurisdiction
over Facebook in the present case.
2. Specific Jurisdiction
Although the question of general jurisdiction looks to
whether an out-of-state defendant is essentially "at home" in
the

forum

state,

the

question

of

specific

jurisdiction

concerns whether the underlying controversy "'arises out of or
24

1170244, 1170294, 1170336
relate[s]

to

the

defendant's

contacts

with

the

forum.'"

Daimler, 571 U.S. at 127 (quoting Helicopteros Nacionales de
Columbia, S.A. v. Hall, 466 U.S. 408, 414 n. 8 (1984)).
"Specific
jurisdiction
...
depends
on
an
'affiliatio[n] between the forum and the underlying
controversy,' principally, activity or an occurrence
that takes place in the forum State and is therefore
subject to the State's regulation. von Mehren &
Trautman, Jurisdiction to Adjudicate: A Suggested
Analysis, 79 Harv. L. Rev. 1121, 1136 (1966)
(hereinafter von Mehren & Trautman); see Brilmayer
et al., A General Look at General Jurisdiction, 66
Texas L. Rev. 721, 782 (1988) .... In contrast to
general,
all-purpose
jurisdiction,
specific
jurisdiction is confined to adjudication of 'issues
deriving from, or connected with, the very
controversy that establishes jurisdiction.' von
Mehren & Trautman 1136."
Goodyear, 564 U.S. at 919.
In Walden v. Fiore, 571 U.S. 277, 291 (2014), the Supreme
Court

summarized

exercise

of

the

specific

minimum

contacts

jurisdiction

necessary

over

a

for

nonresident

defendant:
"The inquiry whether a forum State may assert
specific jurisdiction over a nonresident defendant
'focuses on "the relationship among the defendant,
the forum, and the litigation."' Keeton v. Hustler
Magazine, Inc., 465 U.S. 770, 775 (1984) (quoting
Shaffer v. Heitner, 433 U.S. 186, 204 (1977)). For
a State to exercise jurisdiction consistent with due
process, the defendant's suit-related conduct must
create a substantial connection with the forum
25

the

1170244, 1170294, 1170336
State. Two related aspects of this
relationship are relevant in this case.

necessary

"First, the relationship must arise out of
contacts that the 'defendant himself' creates with
the forum State. Burger King Corp. v. Rudzewicz, 471
U.S. 462, 475 (1985). Due process limits on the
State's adjudicative authority principally protect
the liberty of the nonresident defendant –- not the
convenience of plaintiffs or third parties. See
World–Wide Volkswagen Corp. [v. Woodson, 444 U.S.
286,] 291–292 [(1980)]. We have consistently
rejected attempts to satisfy the defendant-focused
'minimum contacts' inquiry by demonstrating contacts
between the plaintiff (or third parties) and the
forum
State.
See
Helicopteros
Nacionales
de
Colombia, S.A. v. Hall, 466 U.S. 408, 417 (1984)
('[The] unilateral activity of another party or a
third person is not an appropriate consideration
when determining whether a defendant has sufficient
contacts with a forum State to justify an assertion
of
jurisdiction').
...
Put
simply,
however
significant the plaintiff's contacts with the forum
may be, those contacts cannot be 'decisive in
determining whether the defendant's due process
rights are violated.' Rush [v. Savchuk], 444 U.S.
[320,] 332 [(1980)].
"Second, our 'minimum contacts' analysis looks
to the defendant's contacts with the forum State
itself, not the defendant's contacts with persons
who reside there. See, e.g., International Shoe [Co.
v. Washington, 326 U.S. 310,] 319 [(1945)] (Due
process 'does not contemplate that a state may make
binding a judgment in personam against an individual
... with which the state has no contacts, ties, or
relations'); Hanson [v. Denckla, 357 U.S. 235,] 251
[(1958)] ('However minimal the burden of defending
in a foreign tribunal, a defendant may not be called
upon to do so unless he has had the "minimal
contacts" with that State that are a prerequisite to
its exercise of power over him'). Accordingly, we
26

1170244, 1170294, 1170336
have upheld the assertion of jurisdiction over
defendants who have purposefully 'reach[ed] out
beyond' their State and into another by, for
example, entering a contractual relationship that
'envisioned continuing and wide-reaching contacts'
in the forum State, Burger King, supra, at 479–480,
or by circulating magazines to 'deliberately
exploi[t]' a market in the forum State, Keeton,
supra, at 781. And although physical presence in the
forum is not a prerequisite to jurisdiction, Burger
King, supra, at 476, physical entry into the State
–- either by the defendant in person or through an
agent, goods, mail, or some other means –- is
certainly a relevant contact. See, e.g., Keeton,
supra, at 773–774.
"But the plaintiff cannot be the only link
between the defendant and the forum. Rather, it is
the defendant's conduct that must form the necessary
connection with the forum State that is the basis
for its jurisdiction over him. See Burger King,
supra, at 478 ('If the question is whether an
individual's contract with an out-of-state party
alone can automatically establish sufficient minimum
contacts in the other party's home forum, we believe
the answer clearly is that it cannot'); Kulko v.
Superior Court of Cal., City and County of San
Francisco, 436 U.S. 84, 93 (1978) (declining to
'find personal jurisdiction in a State ... merely
because [the plaintiff in a child support action]
was residing there'). To be sure, a defendant's
contacts with the forum State may be intertwined
with his transactions or interactions with the
plaintiff or other parties. But a defendant's
relationship with a plaintiff or third party,
standing alone, is an insufficient basis for
jurisdiction. See Rush, supra, at 332 ('Naturally,
the parties' relationships with each other may be
significant in evaluating their ties to the forum.
The requirements of International Shoe, however,
must be met as to each defendant over whom a state
court exercises jurisdiction'). Due process requires
27

1170244, 1170294, 1170336
that a defendant be haled into court in a forum
State based on his own affiliation with the State,
not based on the 'random, fortuitous, or attenuated'
contacts he makes by interacting with other persons
affiliated with the State. Burger King, 471 U.S., at
475 (internal quotation marks omitted)."
571 U.S. at 283–86.
Facebook argues that K.G.S. failed to demonstrate that
any of its suit-related conduct created sufficient minimum
contacts

with

Alabama

for

the

exercise

of

specific

jurisdiction. The only "conduct" of Facebook described in the
first

amended

complaint

is

that

"Facebook

removed

the

[Facebook] page's cover photo, but refused to delete the
[Facebook] page or otherwise prevent [the Facebook page] from
disseminating its harmful and false message."

The first

amended complaint alleged that this action (or inaction) came
in response to the July 2015 letter to Facebook from K.G.S.'s
attorney;

K.G.S.'s

affidavit

clarified

that

she

received

responses from Facebook after she filed a report of harassment
with

Facebook

regarding

the

Facebook

page.

K.G.S.

also

submitted evidence indicating that Facebook sent her attorney
a "form" response after he contacted Facebook to ask that the

28

1170244, 1170294, 1170336
Facebook page be removed in which Facebook stated that it
would "look into [the] matter shortly." 10
K.G.S. argues that this "conduct" was sufficient to
establish specific jurisdiction over Facebook in Alabama.
Specifically, she argues that "Facebook acted intentionally,
knowingly, and expressly in aiming its conduct toward Alabama
in a manner that caused harm to a particular Alabama citizen
... after it responded multiple times to Alabama citizens and
took and/or failed to take certain actions with respect to
[the] Facebook page that wholly pertained to an Alabama
adoption." K.G.S.'s brief, at 25. She contends that, pursuant
to Calder v. Jones, 465 U.S. 783 (1984), the trial court can
exercise specific jurisdiction over Facebook so long as (1)
Facebook

committed

an

intentional

tort,

(2)

Facebook's

intentional conduct was expressly aimed at Alabama, (3) the
brunt of the harm caused by Facebook's intentional conduct was

10

Facebook presented undisputed evidence that it had no
offices or employees in Alabama, and K.G.S. presented no
evidence in rebuttal to demonstrate that Facebook's removal of
the cover photograph from the Facebook page or its decision
not to delete the Facebook page occurred in Alabama.
29

1170244, 1170294, 1170336
suffered in Alabama, and (4) Facebook knew the harm from its
intentional conduct was likely to be suffered in Alabama. 11

11

Because the exercise of specific jurisdiction is based
on an analysis of the defendant's suit-related conduct that
was "purposefully directed" to the forum, we do not consider
–- and K.G.S. has not asked us to consider –- the general fact
that the Facebook Web site and mobile application are
available for users in Alabama to access. This case does not
arise out of or relate to the fact that the Facebook Web site
or mobile application is available to be accessed by anyone in
Alabama with an Internet connection. As set forth above, the
claim against Facebook arose out of Facebook's failure to
remove the Facebook page, which was created by a resident of
New York state, after it was notified of the allegedly
unlawful activity on the page and the harm it was causing.
Notably, courts that have addressed the question have
concluded that the general accessibility of Facebook's Web
site or mobile application in a forum does not provide a
sufficient connection to the forum to support the exercise of
general or specific jurisdiction. See, e.g., Harrison v.
Facebook, Inc., No. 18-0147-TFM-MU (S.D. Ala. Jan. 17, 2019)
(report and recommendation of magistrate judge), report and
recommendation adopted (S.D. Ala. March 8, 2019) (not reported
in F. Supp.); Georgalis v. Facebook, Inc., 324 F. Supp. 3d 955
(N.D. Ohio 2018); Gullen v. Facebook.com, Inc., No. 15 C 7681
(N.D. Ill. Jan. 21, 2016) (not reported in F. Supp.) (holding
that because the plaintiff failed to allege that Facebook
"targets its alleged biometric collection activities at
Illinois residents, the fact that its site is accessible to
Illinois residents does not confer specific jurisdiction over
Facebook"). See also Advanced Tactical Ordnance Sys., LLC v.
Real Action Paintball, Inc., 751 F.3d 796, 803 (7th Cir. 2014)
(holding that an online merchant's operation of an interactive
Web site, in and of itself, is insufficient to confer specific
jurisdiction over the merchant in every state from which the
Web site can be accessed).
30

1170244, 1170294, 1170336
In Calder, an actress residing in California brought an
action in California alleging that two defendants, who were
Florida residents, wrote and edited a defamatory article about
her, which was published in a national magazine that had its
largest circulation in California.

The United States Supreme

Court held that California had personal jurisdiction over the
two Florida defendants "based on the 'effects' of their
Florida conduct in California." Calder, 465 U.S. at 789. This
was so, the Court held, because the defendants were "not
charged with mere untargeted negligence," but, instead, their
"intentional, and allegedly tortious, actions were expressly
aimed at California." Id. (emphasis added).

The Court found

that California was "the focal point both of the story and of
the harm suffered." Id. at 789.

The defendants' defamatory

article

at

was

"concerned

"expressly
the

aimed"

California

California

activities

of

a

because

it

California

resident," it was "drawn from California sources," and it
caused the plaintiff to suffer "the brunt of the harm" in
California, where the magazine had its largest circulation.
Id. at 788-89.

The defendants knew that "the brunt of that

injury would be felt by respondent in the State in which she
31

1170244, 1170294, 1170336
lives and works and in which [the national magazine] has its
largest circulation." Id. at 789-90. Thus, the Court held, the
defendants
court'

[in

"must

'reasonably

California]

to

anticipate

answer

for

being
the

haled

truth

of

into
the

statements made in their article." Id. at 790.
Thirty years after issuing its decision in Calder, the
Supreme Court revisited and clarified that decision in Walden.
In Walden, the defendant, a Georgia police officer, was
working

as

a

deputized

agent

of

the

Administration at an airport in Atlanta.

Drug

Enforcement

The plaintiffs had

flown from Puerto Rico to Atlanta, where they planned to take
a connecting flight to Las Vegas. The defendant was notified
by

officials

in

Puerto

Rico

that

the

plaintiffs

had

approximately $97,000 in cash in their carry-on luggage, and
the defendant approached the plaintiffs as they were at their
departure gate for their flight to Las Vegas. After a drugsniffing dog inspected the plaintiffs' luggage, the defendant
seized the cash and informed the plaintiffs that their cash
would be returned if they could provide a legitimate source
for the cash, which, the plaintiffs had explained, was their
winnings from gambling. The plaintiffs departed for Las Vegas
32

1170244, 1170294, 1170336
without the cash; the following day, the plaintiffs' attorney
in Nevada telephoned the defendant seeking a return of the
plaintiffs' cash. At some point thereafter, the defendant
drafted an affidavit, which, the plaintiffs' alleged, was
false and misleading, to show probable cause for forfeiture of
the funds; however, no forfeiture action was ever filed, and
the cash was later returned to the plaintiffs. The plaintiffs
sued the Georgia defendant in Nevada, seeking money damages
for, among other things, the defendant's wrongful seizure of
their

cash

without

probable

cause

and

willfully

seeking

forfeiture while withholding exculpatory information.
The United States Court of Appeals for th Ninth Circuit,
applying the Calder "effects test," held that the Nevada court
could exercise personal jurisdiction over the nonresident
defendant because he "'expressly aimed' his submission of the
allegedly

false

affidavit

at

Nevada

by

submitting

the

affidavit with knowledge that it would affect persons with a
'significant connection' to Nevada." Walden, 571 U.S. at 282.
The Ninth Circuit Court of Appeals further held that "the
delay in returning the funds to [the plaintiffs] caused them
'foreseeable harm' in Nevada." Id.
33

In a unanimous decision

1170244, 1170294, 1170336
authored by Justice Thomas, the United States Supreme Court
reversed the judgment of the Court of Appeals and held that
Nevada could not exercise personal jurisdiction over the
defendant. The Court discussed its decision in Calder at
length and stated that the "crux" of its holding in Calder was
"that the reputation-based 'effects' of the alleged libel
connected the defendants to California, not just to the
plaintiff," and that "[t]he strength of that connection was
largely a function of the nature of the libel tort." Id. at
287.

The Court noted that in Calder "the 'effects' caused by

the defendants' article –- i.e., the injury to the plaintiff's
reputation in the estimation of the California public –connected the defendants' conduct to California, not just to
a plaintiff who lived there." Id. at 288.

"That connection,"

the Court held, "combined with the various facts that gave the
article

a

California

focus,

sufficed

to

authorize

the

California court's exercise of jurisdiction." Id.
In applying those principles from Calder to the facts in
Walden, the Court in Walden concluded that the defendant did
not have sufficient minimum contacts with Nevada to justify
the exercise of personal jurisdiction in a Nevada court.
34

The

1170244, 1170294, 1170336
Court noted that "no part of [the defendant's] course of
conduct occurred in Nevada" and that the defendant "never
traveled to, conducted activities within, contacted anyone in,
or sent anything or anyone to Nevada." Id. at 288-89.

"In

short," the Court held, "when viewed through the proper lens
–- whether the defendant's actions connect him to the forum –[the defendant] formed no jurisdictionally relevant contacts
with Nevada." Id. at 289.

The Court rejected the Court of

Appeals' basis for the exercise of personal jurisdiction,
stating:
"The Court of Appeals reached a contrary
conclusion by shifting the analytical focus from
[the defendant]'s contacts with the forum to his
contacts with [the plaintiffs]. See Rush [v.
Savchuk], 444 U.S. [320,] 332 [(1980)]. Rather than
assessing [the defendant]'s own contacts with
Nevada, the Court of Appeals looked to [the
defendant]'s knowledge of [the plaintiffs'] 'strong
forum connections.' [Fiore v. Walden,] 688 F.3d
[558,] 577–579, 581 [(9th Cir. 2012)]. In the
court's view, that knowledge, combined with its
conclusion that respondents suffered foreseeable
harm in Nevada, satisfied the 'minimum contacts'
inquiry. Id., at 582.
"This approach to the 'minimum contacts'
analysis impermissibly allows a plaintiff's contacts
with the defendant and forum to drive the
jurisdictional analysis. [The defendant]'s actions
in Georgia did not create sufficient contacts with
Nevada simply because he allegedly directed his
conduct at plaintiffs whom he knew had Nevada
35

1170244, 1170294, 1170336
connections. Such reasoning improperly attributes a
plaintiff's forum connections to the defendant and
makes
those
connections
'decisive'
in
the
jurisdictional analysis. See Rush, supra, at 332. It
also obscures the reality that none of petitioner's
challenged conduct had anything to do with Nevada
itself.
"Relying on Calder, [the plaintiffs] emphasize
that they suffered the 'injury' caused by [the
defendant]'s allegedly tortious conduct (i.e., the
delayed return of their gambling funds) while they
were residing in the forum. Brief for Respondents
14. This emphasis is likewise misplaced. As
previously noted, Calder made clear that mere injury
to a forum resident is not a sufficient connection
to the forum. Regardless of where a plaintiff lives
or works, an injury is jurisdictionally relevant
only insofar as it shows that the defendant has
formed a contact with the forum State. The proper
question is not where the plaintiff experienced a
particular injury or effect but whether the
defendant's conduct connects him to the forum in a
meaningful way."
571 U.S. at 289–90 (footnote omitted; emphasis added).
Notably, the Court also rejected the notion that the
contacts of the plaintiffs' Nevada attorney with the defendant
in Georgia sufficed to create a contact between the defendant
and Nevada, stating that such a "contact" is "precisely the
sort of 'unilateral activity' of a third party that 'cannot
satisfy the requirement of contact with the forum State.'" Id.
at 291 (quoting Hanson, 357 U.S. at 253).

In sum, the Court

held: "The proper focus of the 'minimum contacts' inquiry in
36

1170244, 1170294, 1170336
intentional-tort

cases

is

'"the

relationship

among

the

defendant, the forum, and the litigation."' Calder, 465 U.S.,
at 788. And it is the defendant, not the plaintiff or third
parties, who must create contacts with the forum State."
Walden, 571 U.S. at 291 (emphasis added).
K.G.S. cites several decisions from other jurisdictions
applying Calder that, she says, support the trial court's
exercise of jurisdiction over Facebook. However, K.G.S. does
not mention Walden in her brief on appeal, and none of the
authorities cited in K.G.S.'s brief apply Walden, despite the
fact that it is a unanimous decision of the United States
Supreme Court applying and clarifying Calder.12

12

Relying on

See, e.g., Panavision Int'l L.P. v. Toeppen, 141 F.3d
1316 (9th Cir. 1998), and Intercon, Inc. v. Bell Atlantic
Internet Solutions, Inc., 205 F.3d 1244 (10th Cir. 2000).
Panavision is distinguishable from the present case because,
in that case, although it did not apply Walden, there was some
evidence indicating that the nonresident defendant aimed his
trademark infringement at California, where the movie and
television industry is centered, and not just at the
plaintiff, a California business that held a registered
trademark in connection with motion-picture camera equipment
and "promote[d] its trademarks through motion picture and
television credits and other media advertising." 141 F.3d at
1319. Intercon, on the other hand, did not apply the Calder
"effects test" to its minimum-contacts analysis; thus, it
provides little support for K.G.S.'s position before this
Court, which is bound to apply both Calder and Walden to the
facts of this case. Even so, unlike the circumstances in this
37

1170244, 1170294, 1170336
that authority, K.G.S. argues that "Calder and its progeny
make clear ... that, in addition to an affirmative act, there
must be 'something more' that allows the court to conclude
[that] the defendant knew or should have known that its
tortious conduct would have effects on certain individuals in
the forum state." K.G.S.'s brief, at 21. However, the Supreme
Court in Walden expressly rejected the notion that specific
jurisdiction may be exercised based on the foreseeability of
harm suffered in the forum state. See Walden, 571 U.S. at 289.
As noted above, the Ninth Circuit Court of Appeals cited the
foreseeability of the harm occurring in the forum as a basis
for holding that the Nevada court had specific jurisdiction
over the Georgia defendant, but the Supreme Court found that
"[t]his

approach

to

the

'minimum

contacts'

analysis

impermissibly allows a plaintiff's contacts with the defendant
and forum to drive the jurisdictional analysis." Id. See also
Axiom Foods, Inc. v. Acerchem Int'l, Inc., 874 F.3d 1064,
1069-70

(9th

Cir.

2017)

("In

Walden,

the

Supreme

Court

case, in Intercon there was evidence indicating that the
nonresident defendant purposefully directed e-mail from its
subscribers to the plaintiff's Oklahoma-based server, thus
making direct use of the plaintiff's property in Oklahoma, the
forum state.
38

1170244, 1170294, 1170336
rejected our conclusion that the defendants' 'knowledge of
[the

plaintiffs']

"strong

forum

connections,"'

plus

the

'foreseeable harm' the plaintiffs suffered in the forum,
comprised sufficient minimum contacts. [571 U.S. at 288-89,]
134 S.Ct. at 1124-25 (citation omitted).").
In

light

of

the

above,

we

cannot

say

that

K.G.S.

demonstrated that Facebook's suit-related conduct created a
"substantial connection" with Alabama.

To the extent that

K.G.S. relies on the contacts Facebook made with K.G.S. and
her

attorney

in

response

to

the

complaints

she

and

her

attorney filed with Facebook about the Facebook page, those
contacts are insufficient to establish minimum contacts with
Alabama.

As the Supreme Court stated in Walden: "[I]t is the

defendant, not the plaintiff or third parties, who must create
contacts with the forum State." 571 U.S. at 291 (emphasis
added).

Facebook's contacts with Alabama that were made

merely in response to K.G.S.'s or her attorney's contact with
Facebook are "precisely the sort of 'unilateral activity' of
a third party that 'cannot satisfy the requirement of contact
with the forum State.'" Id. at 291 (quoting Hanson, 357 U.S.
at 253). Further, to the extent that Facebook's failure to act
39

1170244, 1170294, 1170336
to remove the Facebook page can be analyzed separately from
the responses it sent to K.G.S. and her attorney, we can only
conclude that this intentional conduct was expressly aimed at
K.G.S. herself, and not at Alabama as a forum.

Under Walden,

this "contact" is insufficient to demonstrate that Facebook
created a "substantial connection" with Alabama when it failed
to act to remove the Facebook page. See Walden, 571 U.S. at
289 (holding that a defendant's intentional actions outside
the forum did not create sufficient contacts with the forum
"simply because [the defendant] allegedly directed his conduct
at

plaintiffs whom

forum]").
Facebook

he

knew

had

...

connections

[to

the

Focusing, as we must, on the suit-related contacts
itself

created

with

Alabama

--

not

Facebook's

contacts with K.G.S. or K.G.S.'s contacts with Alabama –- we
must conclude that there is an absence of suit-related conduct
that creates a substantial connection with Alabama.

Thus, we

must conclude that the Fourteenth Amendment does not allow for
the exercise of specific jurisdiction over Facebook under the
particular facts of this case. See Ex parte Citizens Prop.
Ins. Corp., 15 So. 3d 511, 515 (Ala. 2009) ("The issue of
personal jurisdiction '"stands or falls on the unique facts of
40

1170244, 1170294, 1170336
[each] case."'" (quoting Ex parte I.M.C., Inc., 485 So. 2d
724, 725 (Ala. 1986) (quoting and adopting trial court's
order))).13
Accordingly,
Fourteenth
exercise

for

Amendment

general

or

the
does

reasons
not

specific

set

allow

forth

the

personal

above,

trial

the

court

jurisdiction

to

over

Facebook. "'A judgment rendered against a defendant in the
absence

of

personal

jurisdiction

over

that

defendant

is

void.'" Bank of America Corp. v. Edwards, 881 So. 2d 403, 405
(Ala. 2003) (quoting Horizons 2000, Inc. v. Smith, 620 So. 2d
606, 607 (Ala. 1993)).
jurisdiction

to

enter

Because the trial court did not have
a

preliminary

Facebook, that injunction is void.

injunction

against

Because a void judgment

will not support an appeal, see Tidwell v. State Ethics
Comm'n, 599 So. 2d 12 (Ala. 1992), Facebook's appeal is due to
be dismissed.

Because the trial court lacked

13

personal

Because we have concluded that K.G.S. did not establish
that Facebook had sufficient minimum contacts with Alabama to
satisfy due process, we need not consider "whether the
exercise of personal jurisdiction over the nonresident
defendant comports with '"traditional notions of fair play and
substantial justice."'" Elliott, 830 So. 2d at 731 (quoting
Brooks v. Inlow, 453 So. 2d 349, 351 (Ala. 1984), quoting in
turn International Shoe, 326 U.S. at 316).
41

1170244, 1170294, 1170336
jurisdiction

over

Facebook

at

the

time

the

preliminary

injunction was entered, the trial court is instructed to
dismiss K.G.S.'s claims against Facebook.
B. Appeal No. 1170294 - Gelin
Gelin also appealed from the preliminary injunction,
which enjoined Gelin from "publicly discussing, in any way
whatsoever, matters surrounding the adoption of Baby Doe and
this lawsuit in any public forum." On appeal, Gelin first
argues that the "most fundamental error below is that the
trial court lacked personal jurisdiction" over her. Gelin's
brief, at 17.

Before the trial court, Gelin asserted that she

lacked sufficient minimum contacts with Alabama to support the
trial court's exercise of personal jurisdiction over her.

In

response, K.G.S. argued (1) that Gelin's assertion of a
personal-jurisdiction defense came too late because, although
the defense was available to her at the time, it was not
asserted in Gelin's first motion asserting a Rule 12(b)
defense, see generally Rule 12(b), (g), and (h)(1), Ala. R.
Civ. P., and (2) that, under the Calder "effects test,"
Gelin's intentional conduct was aimed at Alabama in a manner

42

1170244, 1170294, 1170336
that

satisfied

the

requirement

of

minimum

contacts

with

Alabama to support the exercise of personal jurisdiction.
In its order denying Gelin's motion to dismiss, the trial
court did not indicate the basis for its conclusion that "it
has jurisdiction over [Gelin]."

In other words, the order

does not indicate whether the trial court believed it had
jurisdiction over Gelin because she had not timely raised the
personal-jurisdiction defense or because Gelin had sufficient
minimum contacts with Alabama.14

Under these circumstances,

where the trial court did not specify a basis for its ruling,
Gelin was required to present an argument in her principal
brief on appeal, in compliance with Rule 28(a)(10), Ala. R.
App. P., stating why neither ground was a valid basis for
asserting personal jurisdiction over her. See Fogarty v.
Southworth, 953 So. 2d 1225, 1232 (Ala. 2006). However, in her
principal brief on appeal, Gelin argues only that she does not
have sufficient minimum contacts with Alabama; she does not

14

Notably, in its order denying Facebook's motion to
dismiss, the trial court specifically concluded that Facebook
had "minimum contacts ... with the State of Alabama." The
order denying Gelin's motion to dismiss does not make any
finding regarding Gelin's having minimum contacts with
Alabama.
43

1170244, 1170294, 1170336
address the other potential basis for the trial court's order
-- that her assertion of the personal-jurisdiction defense was
untimely. Gelin's failure to do so results in a waiver of this
issue on appeal.
"In order to secure a reversal, 'the appellant
has an affirmative duty of showing error upon the
record.' Tucker v. Nichols, 431 So. 2d 1263, 1264
(Ala. 1983). It is a familiar principle of law:
"'When an appellant confronts an issue
below that the appellee contends warrants
a judgment in its favor and the trial
court's order does not specify a basis for
its ruling, the omission of any argument on
appeal as to that issue in the appellant's
principal brief constitutes a waiver with
respect to the issue.'
"Fogarty v. Southworth, 953 So. 2d 1225, 1232 (Ala.
2006) (footnote omitted) (emphasis added). This
waiver, namely, the failure of the appellant to
discuss in the opening brief an issue on which the
trial court might have relied as a basis for its
judgment, results in an affirmance of that judgment.
Id. That is so, because 'this court will not presume
such error on the part of the trial court.' Roberson
v. C.P. Allen Constr. Co., 50 So. 3d 471, 478 (Ala.
Civ. App. 2010) (emphasis added)."
Soutullo v. Mobile Cty., 58 So. 3d 733, 738-39 (Ala. 2010).
Accordingly, we must conclude that the issue whether the
trial court had personal jurisdiction over Gelin is waived on
appeal. See generally Afassco, Inc. v. Sanders, 142 So. 3d
1119, 1124 (Ala. 2013) (noting that the defense of lack of
44

1170244, 1170294, 1170336
personal jurisdiction is subject to waiver).15
turn

now

to

address

Gelin's

direct

Therefore, we

challenges

to

the

preliminary injunction entered against her.
Gelin
suffered

first
from

argues
a

that

procedural

the

preliminary

deficiency

dissolution of the injunction against her.

injunction

that

requires

Specifically, she

contends that the trial court could not enter a preliminary
injunction against her because K.G.S. never moved for a
preliminary injunction against her.
for

a

preliminary

injunction

Indeed, K.G.S.'s motion

sought

an

order

requiring

Facebook and D'Arcy "to deactivate the Facebook page" and an
order enjoining "D'Arcy and Kim McLeod from discussing matters
surrounding ... this lawsuit until the instant proceeding is
fully

litigated

and

resolved."

15

In

the

motion,

K.G.S.

Because we have concluded that this issue is waived on
appeal because Gelin did not raise it in her opening brief on
appeal, we see no basis for allowing K.G.S. to file a "surreply brief" to address Gelin's argument concerning the
timeliness of her Rule 12(b)(2) motion, which was asserted for
the first time in Gelin's reply brief.
The remainder of
K.G.S.'s "sur-reply brief" purports to address the "procedural
flaws" Gelin raised on appeal. However, Gelin raised these
"procedural flaws" in her opening brief, and K.G.S. did not
respond to those arguments in her appellee's brief filed
pursuant to Rule 28(b), Ala. R. App. P. K.G.S.'s failure in
this regard is not a basis for granting her motion to file a
"sur-reply brief."
45

1170244, 1170294, 1170336
identified conduct by D'Arcy and McLeod that she alleged
supported her motion and alleged that D'Arcy and McLeod "are
the most persistent and harmful posters on the [Facebook]
page."

Gelin, however, is not mentioned anywhere in the

motion for a preliminary injunction.
Rule 65(a)(1), Ala. R. Civ. P., provides: "Notice. No
preliminary injunction shall be issued without notice to the
adverse

party."

We

agree

that

the

trial

court

had

no

authority to issue a preliminary injunction against Gelin when
there is no indication that Gelin was given notice that K.G.S.
sought to enjoin her conduct or actions in any way. Cf. State
v. Brady, [Ms. 1180002, May 31, 2019] ___ So. 3d ___ (Ala.
2019) (holding that a trial court acts without authority when
it grants relief that no party before it sought).

There is no

indication in the record that Gelin assumed, despite K.G.S.'s
failure to explicitly seek to enjoin Gelin, that K.G.S.'s
motion for a preliminary injunction as to other defendants
sought to enjoin her in some way. Even assuming that Gelin
received notice that the trial court would consider K.G.S.'s
motion for a preliminary injunction at the November 30 hearing
–- at which the trial court was also considering all pending
46

1170244, 1170294, 1170336
motions to dismiss -- Gelin's notice of a hearing on K.G.S.'s
motion for a preliminary injunction, when Gelin had not been
given notice that K.G.S. sought to enjoin Gelin's actions in
some way, does not satisfy the requirements of Rule 65(a)(1).
Further, even if it became obvious at the November 30 hearing
that K.G.S. sought to enjoin Gelin's conduct in some way, this
Court has indicated that a defendant must be given sufficient
notice so that the defendant has an opportunity to prepare an
opposition to the injunction. See Ciena Corp. v. Jarrard, 203
F.3d 312, 319 (4th Cir. 2000) (holding that "[b]ecause a
preliminary injunction is unlimited in duration, its entry
always requires notice to the opposing party sufficient to
give that party an opportunity to prepare an opposition to
entry of an injunction" (quoted with approval in Southern
Homes, AL, Inc. v. Bermuda Lakes, LLC, 57 So. 3d 100, 105
(Ala. 2010))). Thus, even if Gelin learned at the November 30
hearing that K.G.S. sought to enjoin her conduct in some way,
that "notice" was not sufficient to satisfy Rule 65(a)(1).
Accordingly,

we

reverse

the

order

entering

the

preliminary injunction against Gelin and remand this case with
instructions to the trial court to dissolve the preliminary
47

1170244, 1170294, 1170336
injunction

against

Gelin.

However,

the

trial

court's

determination that it had personal jurisdiction over Gelin
must be upheld because Gelin waived her challenge to the trial
court's determination in that regard for purposes of this
appeal.
C. Appeal No. 1170336 - McLeod
McLeod appeals from the preliminary injunction, which
enjoined her from "publicly discussing, in any way whatsoever,
matters surrounding the adoption of Baby Doe and this lawsuit
in any public forum." McLeod argues, among other things, that
K.G.S. failed to demonstrate that she was entitled to an
injunction.
"'The decision to grant or to deny a preliminary
injunction is within the trial court's sound
discretion. In reviewing an order granting a
preliminary injunction, the Court determines whether
the
trial
court
exceeded
that
discretion.'
SouthTrust Bank of Alabama, N.A. v. Webb–Stiles Co.,
931 So. 2d 706, 709 (Ala. 2005). As to questions of
fact, the ore tenus rule is applicable in
preliminary-injunction proceedings. See Water Works
& Sewer Bd. of Birmingham v. Inland Lake Invs., LLC,
31 So. 3d 686, 689–90 (Ala. 2009). As this Court
recently noted in Holiday Isle, LLC v. Adkins, 12
So. 3d 1173, 1176 (Ala. 2008), however,
"'[t]o the extent that the trial
court's
issuance
of
a
preliminary
injunction is grounded only in questions of
law
based
on
undisputed
facts,
our
48

1170244, 1170294, 1170336
longstanding rule that we review an
injunction solely to determine whether the
trial court exceeded its discretion should
not apply. We find the rule applied by the
United States Supreme Court in similar
situations to be persuasive: "We review the
District Court's legal rulings de novo and
its
ultimate
decision
to
issue
the
preliminary
injunction
for
abuse
of
discretion." Gonzales v. O Centro Espirita
Beneficente Uniao do Vegetal, 546 U.S. 418,
428, 126 S.Ct. 1211, 163 L.Ed. 2d 1017
(2006)....'
"(Emphasis omitted.)
"The plaintiff bears the burden of producing
evidence sufficient to support the issuance of a
preliminary injunction. Ormco Corp. v. Johns, 869
So. 2d 1109, 1113 (Ala. 2003). The requirements for
a preliminary injunction are well known:
"'"Before entering a preliminary
injunction, the trial court must
be satisfied: (1) that without
the injunction the plaintiff will
suffer immediate and irreparable
injury; (2) that the plaintiff
has no adequate remedy at law;
(3) that the plaintiff is likely
to succeed on the merits of the
case; and (4) that the hardship
imposed upon the defendant by the
injunction would not unreasonably
outweigh the benefit to the
plaintiff."'
"Blount Recycling, LLC v. City of Cullman, 884 So.
2d 850, 853 (Ala. 2003) (quoting Blaylock v. Cary,
709 So. 2d 1128, 1130 (Ala. 1997))."

49

1170244, 1170294, 1170336
Barber v. Cornerstone Cmty. Outreach, Inc., 42 So. 3d 65,
77–78 (Ala. 2009).
McLeod first argues that K.G.S. failed to demonstrate a
likelihood of success on the merits of her claims. Initially,
we note that K.G.S. sought a preliminary injunction only on
the basis of the likelihood of success of her underlying
invasion-of-privacy

claim;

accordingly,

we

limit

our

discussion of the likelihood-of-success element to that claim.
This Court has recognized four "distinct theories of
recovery for the tort of invasion of privacy." Regions Bank v.
Plott, 897 So. 2d 239, 243 (Ala. 2004).
"'"It is generally accepted that
invasion of privacy consists of
four limited and distinct wrongs:
(1)
intruding
into
the
plaintiff's physical solitude or
seclusion; (2) giving publicity
to private information about the
plaintiff that violates ordinary
decency;
(3)
putting
the
plaintiff in a false, but not
necessarily defamatory, position
in the public eye; or (4)
appropriating some element of the
plaintiff's personality for a
commercial use."'
"Butler v. Town of Argo, 871 So. 2d 1, 12 (Ala.
2003) (quoting Johnston v. Fuller, 706 So. 2d 700,
701 (Ala. 1997)). 'Although all of these claims
concern, in the abstract, the concept of being left
50

1170244, 1170294, 1170336
alone, each tort has distinct elements and
establishes a separate interest that may be
invaded.' Doe v. High–Tech Inst., Inc., 972 P.2d
1060, 1065 (Colo. Ct. App. 1998); see also Nathan E.
Ray, Note, Let There Be False Light: Resisting the
Growing Trend Against an Important Tort, 84 Minn. L.
Rev. 713, 718 (2000)."
Regions Bank, 897 So. 2d at 243.
In K.G.S.'s amended complaint, she specifically alleged
invasion-of-privacy claims based on "misappropriation" and
"false

light," which

are

the

third

invasion of privacy set forth above.

and

fourth

forms

of

However, other than a

general allegation that "each of the four forms of invasion of
privacy are present," K.G.S., in the motion for a preliminary
injunction, sought to prove only a likelihood of success on a
claim of invasion of privacy based on "giving publicity to
private information about the plaintiff that violates ordinary
decency" –- the second form of invasion of privacy set forth
above.
not

Although this specific form of invasion of privacy is

included

as

a

separate

claim

in

the

first

amended

complaint, there was no objection below to the trial court's
considering this form of invasion of privacy as the basis for
the

preliminary

injunction;

therefore,

we

will

consider

whether K.G.S. demonstrated a likelihood of success on a claim
51

1170244, 1170294, 1170336
of invasion of privacy based on McLeod's giving publicity to
private information about K.G.S. and Baby Doe. 16
"In regard to a claimed invasion of privacy
based on a defendant's giving publicity to private
information, this Court has adopted the language and
reasoning of Restatement (Second) of Torts § 652D
(1977). Johnston[ v. Fuller], 706 So. 2d [700,] 703
[(Ala. 1997)]. Section 652D states:
"'One who gives publicity to a matter
concerning the private life of another is
subject to liability to the other for
invasion of his privacy, if the matter
publicized is of a kind that

16

To the extent the trial court entered the preliminary
injunction based on the likelihood of success on the merits of
the two invasion-of-privacy claims specifically raised in
K.G.S.'s first amended complaint, we agree with McLeod that
such a conclusion would be error, because K.G.S. failed to
present any evidence to support a conclusion that she had a
likelihood of success on the merits of either of those claims.
See Blount Recycling, LLC v. City of Cullman, 884 So. 2d 850,
855 (2003) ("[W]hile Rule 65, Ala. R. Civ. P., 'does not
explicitly require that oral testimony be presented at a
preliminary injunction hearing, some type of evidence which
substantiates the pleadings is implicitly required by
subsection (a)(2) of the rule.'" (quoting Bamberg v. Bamberg,
441 So. 2d 970, 971 (Ala. Civ. App. 1983))); Butler v. Town of
Argo, 871 So. 2d 1, 12 (Ala. 2003) ("A false-light claim does
not require that the information made public be private;
instead, the information made public must be false." (some
emphasis added)); and Bell v. Birmingham Broad. Co., 266 Ala.
266, 269, 96 So. 2d 263, 265 (1957) (noting that an
individual's "privacy ... may not be lawfully invaded by the
use of his name and picture for commercial purposes without
his consent, not incidental to an occurrence of legitimate
news value" (emphasis added)).
52

1170244, 1170294, 1170336
"'(a)
would
be
highly
offensive to a reasonable person,
and
"'(b) is not of legitimate
concern to the public.'"
Ex parte Birmingham News, Inc., 778 So. 2d 814, 818 (Ala.
2000).
In

her

motion

for

a

preliminary

injunction,

K.G.S.

argued:
"In
addition
to
receiving
considerable
publicity, the [Facebook] page, Ms. D'Arcy, and Ms.
McLeod
unlawfully
provide,
and
continue
to
unlawfully provide, confidential and personal
information about K.G.S. and Baby Doe's adoption
that [is] not of public concern and would be
extremely offensive to any reasonable person.
Significantly, in plain violation of the ...
Adoption Code and Alabama confidentiality laws,
K.G.S.'s name and Baby Doe's likeness have been
utilized and referenced incessantly. The frequent
use of K.G.S.'s name and Baby Doe's likeness on the
[Facebook] page, alone, are sufficiently private and
offensive to satisfy this particular invasion of
privacy tort because of states' 'overriding public
policy of protecting from harmful publicity parties
to and the subject of adoption proceedings.' In re
Adoption of H.Y.T., 458 So. 2d 1127, 1128 (Fla.
1984).
" ... Confidentiality is the very essence of the
adoption process, and by openly disclosing K.G.S.'s
name and Baby Does's likeness, K.G.S. and Baby Doe
have been subject to the very harms adoption laws
were intended to prevent."
(Footnote omitted.)
53

1170244, 1170294, 1170336
We agree that the Adoption Code, considered as a whole,
is

a

clear

statement

by

the

legislature

that

adoption

proceedings, whether the adoption is contested or not, are
intended to be confidential. See, e.g., § 26-10A-24(f), Ala.
Code 1975 ("All references to the names of the parties in the
[contested adoption] proceedings shall be by initial only.");
§ 26-10A-26, Ala. Code 1975 ("Only the initials of the natural
parents and the [adoption] petitioner shall be indicated in
all pleadings and briefs" filed in an appeal from a final
judgment

of

(providing

adoption);
for

the

and

§

26-10A-31,

confidentiality

of

Ala.
the

Code

records

1975
and

proceedings in an adoption case, except upon order of the
court).

Citing the requirement in § 26-10A-24(f) that all

references to the names of parties to a contested adoption
must be by initials only, K.G.S. argued that, by disclosing
her name on the Facebook page, McLeod violated that part of
the Adoption Code and invaded her privacy. 17

17

McLeod argues that § 26-10A-24(f) and other parts of the
Adoption Code cannot be applied to prevent third parties, like
her, from publicizing information about the contested adoption
-- after that information is obtained from sources outside
confidential court documents -- without violating her right to
freedom of speech and expression under the First Amendment to
the United States Constitution. For the reasons set forth
54

1170244, 1170294, 1170336
It is axiomatic, however, that a claim of invasion of
privacy based on a defendant's giving publicity to private
information about the plaintiff can succeed only if the
plaintiff

can

prove

that

the

publicized

information

was

actually private at the time it was publicized. See Abernathy
v. Thornton, 263 Ala. 496, 498, 83 So. 2d 235, 237 (1955)
("'There can be no privacy in that which is already public.'"
(quoting Charles Hepburn, Cases on the Law of Torts, p. 504
(1954))); Faloona v. Hustler Magazine, Inc., 799 F.2d 1000,
1006 (5th Cir. 1986) (stating "the obvious" that "the tortious
disclosure of private facts 'applies only to private facts'"
(quoting Faloona v. Huster Magazine, Inc., 607 F. Supp. 1341,
1359 (N.D. Texas 1985))); Grimsley v. Guccione, 703 F. Supp.
903, 910 (M.D. Ala. 1988) ("[A] defendant who merely gives
further publicity about a plaintiff concerning information
already made public cannot be held liable" for an invasion of
privacy based on giving publicity to private information.).
In

her

motion

for

a

preliminary

injunction,

K.G.S.

identified the invasion of privacy at issue as the posting of

herein, we need not consider this specific contention to
resolve the issues presented on appeal.
55

1170244, 1170294, 1170336
her full name and photographs of Baby Doe on the Facebook
page.

Although we agree that K.G.S.'s full name –- i.e., her

identity as the prospective adoptive parent in a contested
adoption

case

involving

Baby

Doe

--

was

intended

to

be

confidential, we must agree with McLeod that, at the time
McLeod publicized K.G.S.'s full name and photographs of Baby
Doe on the Facebook page, that information was not private
but, instead, had already been made public by what K.G.S.
described as "a prominent media outlet" -- the Huffington
Post. It is undisputed that the Facebook page was not created
until after the Huffington Post published its two-part article
using K.G.S.'s full name and identifying her as the petitioner
in the contested adoption proceeding involving Baby Doe.

The

article also published photographs of Baby Doe and very
specific details about the facts underlying the adoption
contest.

Thus, because it was undisputed that K.G.S.'s name

and Baby Doe's likeness were made public before McLeod ever
publicized that information on the Facebook page, K.G.S. has
not demonstrated a likelihood of success on the merits of her
claim that McLeod invaded her privacy by publicizing private

56

1170244, 1170294, 1170336
information by "using K.G.S.'s name and Baby Doe's likeness on
the [Facebook] page." 18
Accordingly,

we

conclude

that

K.G.S.

failed

to

demonstrate a likelihood of success on the merits of her
invasion-of-privacy

claim

to

support

the

entry

of

a

preliminary injunction against McLeod. Based on our conclusion
in this regard, we pretermit discussion of McLeod's additional
challenges to the preliminary injunction.

We reverse the

order granting the preliminary injunction entered against

18

Of course, there could be no invasion of privacy of this
kind in relation to any information McLeod allegedly
publicized about the contested adoption that was already
public information. To the extent that the record contains
some indication that K.G.S. believed that McLeod had
publicized information about the contested adoption that she
might believe was not "already public" at the time it was
publicized, we will not address that suggestion in the record
as an alternate basis for affirming the trial court's
injunction against McLeod because, under the particular
circumstances of this case, we conclude that it would violate
McLeod's due-process rights. See Liberty Nat'l Life Ins. Co.
v. University of Alabama Health Servs. Found., P.C., 881 So.
2d 1013, 1020 (Ala. 2003) (holding that this Court may affirm
a trial court's judgment on any valid legal ground supported
by the record, unless due process requires notice at the trial
level that was omitted). A preliminary injunction is a
"drastic remedy," Ormco Corp. v. Johns, 869 So. 2d 1109, 1114
(Ala. 2003), and K.G.S. did not specifically raise this
argument in her motion for a preliminary injunction or include
any facts to support this argument in her affidavit in support
of the preliminary injunction, and neither party directly
addresses this argument in their briefs on appeal.
57

1170244, 1170294, 1170336
McLeod and remand the case with instructions that the trial
court dissolve the preliminary injunction.
IV. Conclusion
In appeal no. 1170244, the preliminary injunction entered
against Facebook is void for lack of personal jurisdiction;
therefore, Facebook's appeal of the preliminary injunction is
due to be dismissed and the trial court is instructed to
dismiss K.G.S.'s claims against Facebook.

In appeal no.

1170294, the order entering the preliminary injunction against
Gelin is reversed for lack of notice, and the case is remanded
with

instructions

to

the

trial

court

to

preliminary injunction issued against Gelin.

dissolve

the

In appeal no.

1170336, we reverse the preliminary injunction against McLeod,
and we remand this case with instructions to the trial court
to dissolve the preliminary injunction issued against McLeod.
1170244 –- APPEAL DISMISSED WITH INSTRUCTIONS.
1170294 –- REVERSED AND REMANDED WITH INSTRUCTIONS.
1170336 –- REVERSED AND REMANDED WITH INSTRUCTIONS.
Parker, C.J., and Shaw, Wise, Sellers, and Mendheim, JJ.,
concur.
Bolin, J., concurs in the result.
Stewart and Mitchell, JJ., recuse themselves.
58

APPENDIX B
Facebook, Inc. v. K.G.S., individually and as a guardian and next friend
of Baby Doe, a minor child
Certificate of Judgment Overruling Application for Rehearing
No. 1170244 (Supreme Court of Alabama, August 23, 2019)

IN

T H E

S U P R E M E

C O U R T

O F

A L A B A M A

August 23, 2019
1170244
Facebook, Inc. v. K.G.S., individually, and as guardian and next friend of Baby
Doe, a minor child (Appeal from Jefferson Circuit Court: CV-17-255).

CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for rehearing filed in this case and indicated
below was entered in this cause on August 23, 2019:
Application Overruled. No Opinion. Bryan, J. - Parker, C.J., and Bolin, Shaw, Wise, Sellers,
and Mendheim, JJ., concur. Stewart and Mitchell, JJ., recuse themselves.
WHEREAS, the appeal in the above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the judgment indicated below was entered
in this cause on June 28, 2019:
Appeal Dismissed with Instructions. Bryan, J. - Parker, C.J., and Shaw, Wise, Sellers, and
Mendheim, JJ., concur. Bolin, J., concurs in the result. Stewart and Mitchell, JJ., recuse
themselves.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 23rd day of August, 2019.

Clerk, S uprem e Court of A lab am a

